               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Survey of Environmental Compliance
            and Sustainability

               Management Advisory




                                         December 17, 2012


Report Number HR-MA-13-001
                                                                         December 17, 2012

                                                Survey of Environmental Compliance and
                                                                          Sustainability

                                                             Report Number HR-MA-13-001



BACKGROUND:
The U.S. Postal Service's vision is to be         to personnel at a sample of high-risk
a sustainability leader by building a             facilities. The purpose of the survey was
culture of conservation. Sustainability           to obtain field personnel’s knowledge of
involves harvesting or using a resource           the Postal Service’s environmental and
so that the resource is not depleted or           sustainability regulatory requirements
permanently damaged. The Office of                and programs to assist in assessing
Sustainability is responsible for                 high-risk environmental issues.
managing programs that track and
report on sustainability issues and               CONCLUSION:
programs that impact energy or                    We received survey responses from
environmental compliance. In fiscal year          each Postal area, with response rates
(FY) 2011, the office identified 1,016            ranging from 41 to 72 percent, and 50
facilities as ‘high-risk’ based on various        percent overall. These included
environmental factors.                            responses from plant, vehicle
                                                  maintenance facility, network distribution
Challenges exist that affect the success          center, and Post Office personnel. We
of these programs, including:                     presented the survey results in four
                                                  categories:
   The Office of Sustainability had a
    budget of $24 million for FY 2012. In            Environmental Management
    addition to the field environmental               Process.
    projects funded by the office, areas             Environmental Compliance.
    and districts fund their own projects.           Training.
    As a result, it is difficult to centrally        Facility Deactivation.
    track costs.
                                                  We plan to use the survey results to
   A recent policy change requires               guide future reviews of environmental
    violation notices to be forwarded to          compliance and sustainability.
    the Office of Sustainability. However,
    those responsible for reporting               WHAT THE OIG RECOMMENDED:
    violations may not be aware of the            The survey results are provided for
    current requirements and reporting            informational purposes only. We did not
    process.                                      verify the responses, formulate
                                                  conclusions or offer any
In coordination with the chief                    recommendations.
Sustainability and Environmental officer,
we developed and distributed a survey             Link to review the entire report
December 17, 2012

MEMORANDUM FOR:           THOMAS G. DAY
                          CHIEF SUSTAINABILITY OFFICER

                                  E-Signed by Michael A. Magalski
                               VERIFY authenticity with eSign Desktop


FROM:                     Michael A. Magalski
                          Deputy Assistant Inspector General
                          for Support Operations

SUBJECT:                  Management Advisory – Survey of Environmental
                          Compliance and Sustainability
                          (Report Number HR-MA-13-001)

This management advisory presents the results of our Survey of Environmental
Compliance and Sustainability (Project Number 12YG030DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director, Human
Resources and Support, or me at 703-248-2100.

Attachments

cc: Ronald A. Stroman
    Corporate Audit and Response Management
Survey of Environmental Compliance and Sustainability                                                               HR-MA-13-001




                                                TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Environmental Management Process.............................................................................. 3

Environmental Compliance ............................................................................................. 6

Training ........................................................................................................................... 9

Facility Deactivation ...................................................................................................... 10

Appendix A: Additional Information ............................................................................... 12

   Background ............................................................................................................... 12

   Objective, Scope, and Methodology .......................................................................... 12

   Prior Audit Coverage ................................................................................................. 13

Appendix B: Summary of Most Frequent Suggestions ................................................. 14

   Overall Improvements................................................................................................ 14

   Notices of Violation Reporting Process ..................................................................... 16

Appendix C: Glossary of Agency and Contractor Acronyms ........................................ 17

Appendix D: Field Environmental Survey ...................................................................... 19
Survey of Environmental Compliance and Sustainability                                                   HR-MA-13-001




Introduction

This report presents the results of our self-initiated Survey of Environmental Compliance
and Sustainability (Project Number 12YG030DA000). This was a coordinated effort
between the U.S. Postal Service Office of Inspector General (OIG) and the U.S. Postal
Service Office of Sustainability. Our objective was to obtain field personnel’s 1
knowledge of the Postal Service’s environmental and sustainability regulatory
requirements and programs to assist in assessing high-risk environmental issues. This
survey addresses strategic and operational risks. See Appendix A for additional
information about this audit.

The Postal Service’s Office of Sustainability is responsible for managing programs that
track and report on sustainability issues and programs that impact energy or
environmental compliance. Challenges exist that affect the success of these programs,
including:

   The Office of Sustainability had a budget of $24 million for fiscal year (FY) 2012 to
    fund mail irradiation and sustainability programs, including facility and vehicle fleet
    energy reduction and development of environmental policies and risk management.
    Also, in addition to the field environmental projects funded by the Office of
    Sustainability, areas and districts fund their own projects. As a result, it is difficult to
    centrally track costs.

   A recent policy change requires all environmental notices of violation (NOVs) 2 to be
    forwarded to the Office of Sustainability. However, those responsible for reporting
    NOVs may not be aware of the current requirements and reporting process. 3

In FY 2011, the Postal Service Office of Sustainability identified 1,016 facilities as
high-risk based on various environmental factors. 4 The list included plants, vehicle
maintenance facilities (VMF), network distribution centers (NDC), post offices, and
stations.

We developed and distributed this survey to personnel at a judgmentally selected
sample of these high-risk facilities to obtain a better understanding of field personnel’s
knowledge of the Postal Service’s environmental and sustainability regulatory
requirements and programs to assist in assessing high-risk environmental issues.



1
  Field personnel include Postal Service plant, VMF, NDC, post office, and station personnel.
2
  Warning letters or notices of non-compliance issued to the Postal Service from a local, state, or federal agency for
violation of an environmental regulation.
3
  Management distributed the policy directly to areas and districts and published it in Postal Bulletins dated
October 20, 2011, May 3, 2012, and October 18, 2012.
4
  We did not obtain detailed information regarding the risk assessment used to identify these facilities.
                                                            1
Survey of Environmental Compliance and Sustainability                                                 HR-MA-13-001



Conclusion

Overall, of the 829 surveys we sent to personnel at judgmentally selected facilities
identified as high-risk, we obtained a 50 percent response rate. The results are provided
for informational purposes only. We did not verify the responses, formulate conclusions,
or offer any recommendations. We plan to use survey results to guide future reviews of
environmental compliance and sustainability. See Appendix D for the Field
Environmental Survey issued.

As shown in Table 1, we received responses from personnel at high-risk facilities in
each area, with response rates ranging from 41 to 72 percent.

                                      Table 1. Survey Statistics
                                      Surveys             Number of                 Response
                    Area               Issued            Respondents                Percentage
              Capital Metro              47                   34                       72%
              Eastern                    134                  86                        64
              Great Lakes                94                   50                        53
              Northeast                  109                  46                        42
              Pacific                    62                   28                        45
              Southern                   209                  86                        41
              Western                    174                  83                        48
              Total                      829                 413                       50%


Table 2 shows the breakdown of who responded to the 829 surveys we issued.

                                      Table 2. Responses by Facility Type
                     Facility Type                            Count           Percentage
                     Plant                                     145                35%
                     VMF                                       168                 41
                     NDC                                       11                   3
                     Post Office                               70                  17
                     Station 5                                 19                   5
                     Total                                     413               100%



Table 3 shows that the majority of the respondents have been in their position between
1 and 5 years, with 36 percent in their position for 6 years or more, and only 13 percent
for less than 1 year.




5
 Stations are subordinate units to Post Office that provide one or more services at sites more convenient to
customers.

                                                          2
Survey of Environmental Compliance and Sustainability                                                 HR-MA-13-001



                                      Table 3. Years in Position
                          How Long Have You Been in Your Position?
    Area           Less than 1 Year    1-5 Years       6-10 Years                            11 or More Years
                  Count      Percent Count Percent Count Percent                              Count    Percent
Capital             2        6%       20      59%      6       18%                             6        18%
Metro
Eastern             15           18            39          46          19          22           12            14
Great Lakes          6           12            23          46          13          26           8             16
Northeast            9           20            15          33          13          28           9             20
Pacific              5           18            11          39           4          14           8             29
Southern            12           14            51          59          11          13           13            15
Western              6           7             50          61          14          17           12            15
Total               55          13%            209        51%          80         19%           68           17%

We presented the results of the survey in four categories, including:

   Environmental Management Process.
   Environmental Compliance.
   Training.
   Facility Deactivation.

Environmental Management Process

The environmental management process at Postal Service facilities includes properly
reporting environmental NOVs. As shown in Table 4, few respondents were aware of
any NOVs or citations. 6 The highest positive response rate was in the Pacific Area,
where about 29 percent of the respondents indicated they were aware that their facility
received NOVs or related citations.




6
 All but three of those sites that reported receiving NOVs indicated that abatement had resolved the issue and there
were no repeat violations.

                                                          3
Survey of Environmental Compliance and Sustainability                                                HR-MA-13-001



                             Table 4. Environmental NOV Awareness
        Are You Aware of Any NOVs, Notices to Correct or Any Form of Citation or
       Observations That Your Facility Has Received as a Result of Non-compliance
                          With an Environmental Regulation?
                          No                 Yes            No Answer       Total
          Area      Count Percent Count Percent Count Percent
       Capital       31       91%         3      9%        0         0%      34
       Metro
       Eastern       77        90         9       10       0          0      86
       Great Lakes   48        96         2       4        0          0      50
       Northeast     41        89         5       11       0          0      46
       Pacific       20        71         8       29       0          0      28
       Southern      84        98         2       2        0          0      86
       Western       81        98         1       1        1          1      83
       Total         382      92%        30      7%        1       0.24%     413

Table 5 shows that the majority of survey respondents indicated they were aware of the
requirement to report NOVs to the manager, Regional Environmental Compliance and
Sustainability.

                       Table 5. NOV Reporting Requirement Awareness
           Are You Aware of the Requirement to Report All NOVs to the Manager,
                   Regional Environmental Compliance and Sustainability?
                             No               Yes           No Answer      Total
            Area       Count Percent Count Percent Count Percent
         Capital         8       24%      25      74%       1        3%      34
         Metro
         Eastern        22        26      64       74       0         0      86
         Great Lakes    22        44      28       56       0         0      50
         Northeast       8        17      38       83       0         0      46
         Pacific         9        32      19       68       0         0      28
         Southern       39        45      46       53       1         1      86
         Western        35        42      48       58       0         0      83
         Total          143      35%      268     65%       2       0.5%    413


However, Table 6 shows that the follow-up question regarding who they actually contact
produced varied results, including Safety Kleen, 7 Facilities Service Office (FSO)/Facility
Single Source Provider (FSSP), regulatory agencies, and others in the Postal Service,
such as the manager, Post Office Operations.




7
 A private company that provides environmental services and products, such as collecting and recycling oil,
performing industrial cleaning, and handling industrial waste.


                                                         4
Survey of Environmental Compliance and Sustainability                                                HR-MA-13-001




                                 Table 6. Environmental Points of Contact
                           Who Do You Contact for Environmental Related Issues or Concerns?
                             Capital             Great   North-
                             Metro     Eastern   Lakes    east    Pacific   Southern   Western                  Total
Survey Responses
Environmental
Compliance/Risk
Mitigation Specialist-
Regional West/East                 9        35       1       9        15          34          33          136           33%
Corporate
Sustainability
Initiatives - Project
Specialist                       10         20      28       20         0          0             1         79            19
Area Environmental
Coordinator                        2         1       4       0          5          4          11           27             7
Energy Specialist                  1         0       0       0          0          9           0           10             2
Facility or
Maintenance
Manager/Supervisor                 0         8       4       3          2          6          12           35             8
District Safety - Safety
Kleen                             3          4       1        4       0           11           4           27           7
Area/District Office              5          9       7        7        2           9           8           47          11
Other                             3          1       3        2        3           9          10           31           8
N/A                               1          8       2        1        1           4           4           21           5
Total                            34         86      50       46       28          86          83          413       100%


Table 7 shows that, overall, a majority of the respondents maintain records on NOVs.

                           Table 7. Environmental Record Maintenance
                 Do You Maintain Records Related to Environmental NOVs?
                          No               Yes             No Answer                             Total
           Area      Count Percent Count Percent Count Percent
         Capital       8      24%       21      62%       5     15%                                  34
         Metro
         Eastern      26       30       60       70       0       0                                  86
         Great        15       30       32       64       3       6                                  50
         Lakes
         Northeast    12       26       33       72       1       2                                  46
         Pacific       5       18       23       82       0       0                                  28
         Southern     38       44       46       53       2       2                                  86
         Western      40       48       42       51       1       1                                  83
         Total        144     35%      257      62%      12      3%                                  413

The percentage of respondents who indicated that they maintain records on NOVs is
much greater than those who indicated that they were aware of any NOVs or other
citations issued for their facility.




                                                         5
Survey of Environmental Compliance and Sustainability                                                        HR-MA-13-001



Environmental Compliance

Regulatory agencies (see Table 9) may periodically perform inspections and visits at
Postal Service facilities to ensure environmental compliance. To maintain compliance,
facilities conduct various projects for which personnel must obtain funding. The majority
of respondents indicated they had not received an inspection or visit in the last year.
Also, survey respondents indicated environmental compliance projects are funded by a
variety of methods, such as eBuy and FSSP. 8 Respondents reported more than
$849,000 of environmental compliance expenditures in FY 2011.

Regulatory Visits and Inspections

The majority of respondents (84 percent) indicated that the facility where they are
located had not received an inspection or visit in the last year. As shown in Table 8, the
Pacific Area had the highest proportion of respondents (54 percent) indicating that they
were aware of an inspection or visit at their respective facilities.

                                               Table 8. Inspections
         Have You Received Any Other Inspections or Visits by an Environmental
                         Regulatory Agency in the Last Year?
                         No                Yes              No Answer      Total
                                  9
          Area     Count Percent      Count Percent Count Percent
      Capital       30      88%         4      12%         0       0%
      Metro                                                                    34
      Eastern       75       87        11       13         0        0          86
      Great Lakes   43       86         5       10         2        4          50
      Northeast     36       78         9       20         1        2          46
      Pacific       12       43        15       54         1        4          28
      Southern      77       90         8        9         1        1          86
      Western       75       90         7        8         1        1          83
      Total         348     84%        59      14%         6       1%         413

For survey respondents who answered “Yes” to whether their respective facilities had
received any inspections or visits by an environmental regulatory agency in the last
year, we provided the opportunity in a follow-up question to list the names of the
agencies that conducted the inspections or visits. Sixty-one survey respondents
provided a response listing one or more contractors or agencies. As depicted in Table 9,
they largely reflected various environmental regulatory agencies, including the
Environmental Protection Agency (EPA) and various state and local agencies. See
Appendix C for a glossary of acronyms cited. Other agencies listed included local
utilities, the Wisconsin Department of Commerce, and the New Hampshire Department
of Transportation. Some respondents also indicated that their facility had received an

8
  The Postal Service’s facility response line that consolidates all facility repair and alteration requests. Area facility
service offices coordinate and fund repairs.
9
  All percentages have been rounded to the nearest whole percentage. As a result, percentages in the Pacific,
Western, and Total rows do not sum to exactly 100 percent.

                                                              6
Survey of Environmental Compliance and Sustainability                              HR-MA-13-001



inspection or visit by either a Postal Service environmental staff member, or the URS
Corporation, Cardno ATC Associates, or HDR, firms that the Postal Service contracts
with to perform environmental compliance reviews at Postal Service facilities.

                Table 9. Agencies or Contractors Conducting Inspections
                  Area                                  Agencies or Contractors Cited
                                                           Postal Environmental Team
                                                     District Department of the Environment
                                                                 (Washington, DC)
                                               Department of Health and Environmental Control
                                                                      (DHEC)
Capital Metro                                                  South Carolina DHEC
                                                                  URS Corporation
                                                          EPA, Multimedia Enforcement
                                             WV Department of Environmental Protection (DEP)
                                            Pennsylvania EPA Department of Water Management
                                                        Lexington Fayette Ground Water
                                              Bureau of Underground Storage Tank Regulations
Eastern                                         City of Cleveland Department of Public Safety
                                                              Cardno ATC Associates
                                                          WI Department of Commerce
                                                Michigan Department of Environmental Quality
                                                            Metropolitan Sewer District
Great Lakes                                  Indiana Department of Environmental Management
                                                           Middlesex County Recycling
                                                                Massachusetts DEP
                                                                   New York DEP
                                                                  URS Corporation
Northeast                                       New Hampshire Department of Transportation
                                                                  URS Corporation
                                                              Storm water inspectors
Pacific                                       Certified Unified Program Agency/Fire Department
                                            Environmental Compliance/Risk Mitigation Specialist
                                                                    Florida DEP
                                                                        EPA
Southern                                                       Houston Public Works
                                                                    City of Reno
                                                                     Clean Air
                                                              Cardno ATC Associates
                                                                        EPA
                                                                  URS Corporation
                                                                        HDR
Western                                      Arizona State Underground Storage Tank Inspector




                                                   7
Survey of Environmental Compliance and Sustainability                                               HR-MA-13-001



Funding

Survey respondents provided a wide range of responses to the question regarding how
their respective facilities fund environmental compliance projects. The majority of survey
respondents (137) indicated that they submit a request for funding through the Postal
Service’s eBuy system. An additional 31 respondents indicated they use a combination
of methods, including eBuy, depending on the issue. Other responses included local
funding charged to the facility finance number, through the area and/or district office, or
through the FSSP. Thirty-eight respondents indicated that the survey question was not
applicable to their respective facility and 10 respondents indicated they did not know
how their facility funds environmental compliance projects.

We also asked about total compliance cost by category for FY 2011. As depicted in
Table 10, 125 respondents provided environmental compliance costs totaling $849,791.
The totals by area range between about $35,000 and $264,000.

                              Table 10. Environmental Compliance Costs
                                                                           Total Compliance
                          Area            Number of Responses                   Costs 10
                      Capital Metro                10                           $34,931
                      Eastern                      28                           264,397
                      Great Lakes                  20                            69,740
                      Northeast                    22                           149,659
                      Pacific                      13                            79,796
                      Southern                     31                            87,586
                      Western                      18                           163,682
                      Total                       142                          $849,791




10
     Costs are based on survey responses only. We did not validate this information for accuracy.

                                                            8
Survey of Environmental Compliance and Sustainability                           HR-MA-13-001



Finally, to determine the extent the FSSP facility response line is used as an alternative
source of funding, we asked survey respondents whether they report environmental
projects to the FSSP. As shown in Table 11, the majority of survey respondents
(54 percent) indicated that they do not report environmental projects to the FSSP.

                                   Table 11. FSSP Utilization
                       Do You Call in Environmental Projects to FSSP?
                              No                Yes            No Answer Total
             Area       Count Percent Count Percent Count Percent
         Capital Metro    18      53%       14       41%       2      6%   34
         Eastern          49        57      36         42      1       1   86
         Great Lakes      18        36      31         62      1       2   50
         Northeast        24        52      22         48      0       0   46
         Pacific          18        64       7         25      3      11   28
         Southern         55        64      27         31      4       5   86
         Western          43        52      38         46      2       2   83
         Total            225     54%       175      42%      13      3%  413

Training

Environmental training requirements vary based on state and local jurisdiction, roles
and responsibilities, and facility operations and systems. Overall, respondents reported
approximately $126,000 for funding environmental compliance training.

There were 230 respondents that provided an opinion regarding who needed
environmental knowledge and skills training, including:

   Maintenance and building managers or supervisors (21 percent).
   VMF, auto, custodial staff or lead technicians (14 percent).
   All employees and all managers (20 percent).

The remaining 45 percent believe that all staff handling environmental issues, those
handling hazardous waste or recycling, postmasters, customer service managers,
facility managers, new hires, and others all need training.

Seventy-five percent of respondents indicated they know where to get training. The
sources respondents used to obtain training included:

   Learning Management System (LMS) or LMS specialist.
   Department of Health and Environmental Controls.
   Indiana Department of Environmental Management.
   Postal Employee Development Center.
   National Center Employee Development.
   Environmental or sustainability representative or area/district coordinator (to inquire
    about training).
   Online sustainability website.

                                                   9
Survey of Environmental Compliance and Sustainability                                               HR-MA-13-001



      Safety Kleen.
      Safety Office.
      Video or stand-up talks.

These same respondents provided the annual cost of environmental training for their
facility. As shown in Table 12, the Northeast, Southern, and Eastern areas comprised
the majority of the environmental training costs.

                                Table 12. Environmental Training Costs
                                    Area                   Training Costs11
                                Capital Metro                                   $7,144
                                Eastern                                         17,524
                                Great Lakes                                     10,275
                                Northeast                                       45,607
                                Pacific                                          8,400
                                Southern                                        34,674
                                Western                                          2,460
                                Total                                         $126,084

Facility Deactivation

When disposing of Postal Service-owned, excess properties and buildings, the Postal
Service is responsible for adhering to environmental regulations. Personnel at facilities
being deactivated must check for environmental hazards to ensure environmental risks
are minimized. As shown in Table 13, 33 of the 413 respondents (8 percent) indicated
their facility had been identified for deactivation.

                                       Table 13. Facility Deactivation
                                       Area               Number of Facilities
                                 Capital Metro                                        1
                                 Eastern                                              4
                                 Great Lakes                                          9
                                 Northeast                                            4
                                 Pacific                                              3
                                 Southern                                             8
                                 Western                                              4
                                 Total                                               33

However, the majority also indicated they had not performed the required actions. For
example, only seven of 33 respondents (21 percent) indicated they had identified and
inventoried environmental equipment in facilities that needed to be deactivated. Also,
only 12 respondents (36 percent) indicated they had identified all hazardous or
regulated waste, unused chemicals, paints, and other potentially hazardous materials
for proper disposal.

11
     Costs are based on survey responses only. We did not validate this information for accuracy.

                                                           10
Survey of Environmental Compliance and Sustainability                           HR-MA-13-001




                             Appendix A: Additional Information

Background

In early FY 2011, the Postal Service restructured its environmental compliance office
and created the Office of Sustainability. It has five reporting units:

   Corporate Sustainability Initiatives is responsible for leading corporate
    sustainability initiatives including corporate recycling initiatives, Lean Green Team
    engagement, Cradle-to-Cradle certification, customer and supplier engagement
    initiatives, and voluntary corporate programs.

   Energy Initiatives is responsible for leading the development of corporate energy
    conservation and renewable energy goals and programs, National Performance
    Assessment reporting for the energy index, federally mandated energy reporting,
    maintaining corporate sustainability data warehouse, and managing the corporate
    utility management system.

   Environmental Compliance and Risk Management leads development of
    corporate programs and polices related to environmental compliance, assurance
    reporting, environmental compliance audits, corporate risk and compliance
    mitigation projects, corporate climate change adaption plans, and National
    Environmental Policy Act reviews.

   Regional Sustainability Initiatives (West and East) teams serve as liaisons to
    state and regional regulators. Regional teams also provide area, district, and facility
    managers with support to develop area plans, conduct compliance and energy
    performance reviews; and coordinate with area staff to conduct on-site
    environmental compliance audits. They also track and coordinate area and district
    compliance mitigation efforts, wide recycling initiatives, energy conservation efforts,
    alternative fuel use, Lean Green Team engagement, and other corporate green
    initiatives.

Objective, Scope, and Methodology

Our objective was to obtain field personnel’s knowledge of the Postal Service’s
environmental and sustainability regulatory requirements and programs to assist in
assessing high-risk environmental issues. We coordinated with the Postal Service
Office of Sustainability to accomplish our objective. Specifically we:

   Obtained the FY 2011 list of 1,016 Postal Service facilities identified as high-risk
    from the Postal Service Office of Sustainability. The list included plants, VMF, NDCs,
    post offices, and stations.




                                                  11
Survey of Environmental Compliance and Sustainability                           HR-MA-13-001




   Grouped the list of high-risk facilities by area and identified a survey respondent for
    each facility.

   Coordinated with the chief Sustainability and Environmental officer to develop
    questions for the electronic environmental field survey. The survey contained
    questions focusing on environmental compliance components including tracking
    NOVs, deactivation readiness, funding, and management.

   Distributed pilot surveys to 47 judgmentally selected Capital Metro Area personnel
    to test the effectiveness of survey questions. We obtained 34 responses from the 47
    surveys (72 percent) distributed.

   Formally distributed the survey to personnel at 782 additional judgmentally selected
    facilities in the remaining six areas.

We conducted this survey from July through December 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluations. We discussed our observations and conclusions with
management on November 20, 2012, and included their comments where appropriate.

The data presented in this report are based on survey responses compiled
electronically. We did not verify the responses or formulate conclusions. We tested the
reliability of the data by cross-indexing data fields between system-generated reports
and discussing the results with OIG officials knowledgeable of the server. We
determined that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this
review.




                                                  12
Survey of Environmental Compliance and Sustainability                           HR-MA-13-001




                 Appendix B: Summary of Most Frequent Suggestions

We provided an opportunity for respondents to provide suggestions for improvements
and best practices in various areas, including:

   How to improve the Postal Service’s environmental compliance program.
   How to improve the NOV reporting process.
   The best way to isolate and track environmental compliance costs.

We summarized the most frequent comments received.

Overall Improvements

Of the 413 respondents, 83 provided comments on training, professional environmental
coordinators, communications, and compliance audits and inspections as follows:

Training

   Many employees that had training in the past have changed positions, retired, or
    otherwise left. Replacements do not have or always receive the training they need in
    order to properly manage environmental programs.

   In the past, facility managers were trained by local environmental specialists. Since
    this has changed, new managers struggle to stay in compliance.

   More structured training is needed by the environmental group.

   Resume routine periodic training and conduct annual refresher training.

   More site specific training and training on national, state, and local compliance.

   Better training material should be provided as it pertains to the scope of work being
    conducted by responsible managers.

Professional Environmental Coordinators

   Return the lost Environmental Compliance/Risk Mitigation positions recently reduced
    by headquarters.

   Hire the experts back to maintain environmental compliance. Give this important
    issue back to the experts.

   Keep an environmental specialist available as an advisor or someone at the district
    or area level whose sole job is to work with the field to ensure compliance.



                                                  13
Survey of Environmental Compliance and Sustainability                           HR-MA-13-001



   Restore consistency and continuity. For example, there have been four different
    environmental compliance specialists over the Oklahoma District. There has also
    been restructuring and job eliminations.

   There needs to be a professional environmental coordinator position readily
    available to assist field personnel. Local management or VMFs cannot handle the
    added responsibility, especially in locations with instability in the staffing.

Communications

   Need more details on the actual environmental structure.

   Simplify the process and make it easier to track environmental issues.

   Send out contact list including all environmental contact names and telephone
    numbers.

   Maintain better documentation for employees changing office/positions. The duties
    and responsibilities for new or transitioning personnel are unclear when going to a
    new facility.

   Need more communications concerning environmental responsibilities.

   Start with upper level management knowing what is needed for approvals and
    authorizations. Do not allow contractors the option to email managers and submit
    quotes asking for approvals.

Compliance Audits and Inspections

   Develop an easy to follow checklist for compliance. Eliminate the usual 50-page
    inspection that takes days to complete and repeats the same questions over and
    over.

   Implement a local and national help desk. Questions for environmental issues of
    compliance, rules, laws, regulations are very difficult to get approved by the local
    environmental department.

   Conduct regular audits (by area environmental coordinators).

   Provide more required compliance checklists as reminders.

   Reinstate annual inspections; previously conducted annual or quarterly
    environmental inspections, but with the elimination of environmental positions that
    has now stopped.




                                                  14
Survey of Environmental Compliance and Sustainability                            HR-MA-13-001



   Seek out environmental reviews to verify that responsiveness is appropriate and that
    paid contractors are performing the proper tasks. Also conduct follow up as required;
    oversight must be corrected.

   Ensure environmental compliance for the right reasons, including costly
    non-compliance issues.

   Ensure that resources are available to correct identified environmental
    non-compliance issues in an efficient manner.

Notices of Violation Reporting Process

Of the 413 respondents, only 33 (8 percent) provided suggestions regarding the NOV
reporting process, summarized as follows:

   Provide experts and contacts.

   Provide training, standard operating procedure, checklists or guides to help with
    NOV process.

   Miscellaneous - To include shared information on NOVs between sites to reduce
    repeat violations and update information more.

Tracking Costs

Of the 413 responses, 245 provided suggestions about how to best track environmental
costs, summarized as follows:

   Establish unique account identifier codes for environmental related costs.

   Centrally locate site-specific records and maintain environmental spreadsheets and
    logs.

   Designate environmental staff at the headquarters, area, district, and/or local level,
    or FSO staff to track costs.

   Utilize data systems such as Environmental Tool Kit, eBuy, Enterprise Data
    Warehouse, Electronic Maintenance Activity Reporting and Scheduling, or develop
    new system.




                                                  15
  Survey of Environmental Compliance and Sustainability                           HR-MA-13-001



                Appendix C: Glossary of Agency and Contractor Acronyms

BUSTR                               Bureau of Underground Storage Tank Regulations. BUSTR is a
                                    bureau of Ohio’s Fire Marshal’s Office.
Cardno ATC Associates               Cardno ATC Associates has a national presence that provides
                                    specialized expertise to the real estate, petroleum,
                                    water/wastewater, and mining industries.
CUPA                                Certified Unified Program Agencies. California State Senate Bill
                                    1082 of 1993 required the Secretary of the California EPA
                                    (Cal/EPA) to establish a ‘unified hazardous waste and hazardous
                                    materials management’ regulatory program (Unified Program).
                                    Currently, there are 83 CUPAs in California. The Unified Program
                                    consolidates, coordinates, and makes consistent the
                                    administrative requirements, permits, inspections, and
                                    enforcement activities of six environmental and emergency
                                    response programs.
DDOE for Washington, DC             District Department of the Environment. DDOE is the leading
                                    authority on energy and environmental issues affecting the
                                    District of Columbia.
DHEC                                South Carolina Department of Health and Environmental Control.
EPA                                 U.S. Environmental Protection Agency.
EPA, Multimedia                     The Multimedia Enforcement Program is an Environmental
Enforcement                         Protection Agency enforcement program that involves more than
                                    one media (air, water, or land) or more than one law (Clean Air
                                    Act, Clean Water Act, etcetera). For example, a multimedia
                                    enforcement action occurs when EPA reviews air and water
                                    issues during one inspection, or when violations of the Resource
                                    Conservation and Recovery Act and Safe Drinking Water Act are
                                    combined into one administrative order. Multimedia enforcement
                                    actions can also be comprehensive reviews of all applicable laws
                                    at one facility and taking one enforcement action to resolve all
                                    violations.
HDR                                 A global employee-owned firm providing architecture,
                                    engineering, consulting, construction, and related services
                                    through our various operating companies.
IDEM                                Indiana Department of Environmental Management.
Massachusetts DEP                   Massachusetts Department of Environmental Protection.
Michigan DEQ                        Michigan Department of Environmental Quality.
MSD Sewer Company                   Metropolitan Sewer District of greater Cincinnati (known as MSD
                                    or MSDGC) serves the wastewater removal and treatment needs
                                    of residents and businesses in Hamilton County, OH.
New Hampshire DOT                   New Hampshire Department of Transportation.
Pennsylvania EPA                    Pennsylvania Department of Environmental Protection.




                                                    16
  Survey of Environmental Compliance and Sustainability                           HR-MA-13-001



URS                                 URS was incorporated in 1957 as Broadview Research. The
                                    name Broadview Research was changed to United Research
                                    Services in 1968, and later shortened to URS. URS Corporation
                                    is a leading provider of engineering, construction and technical
                                    services for public agencies and private sector companies around
                                    the world. The Postal Service contracts URS to perform
                                    environmental compliance reviews at select Postal Service
                                    facilities.
WI Department of                    Wisconsin Department of Commerce.
Commerce
WV DEP                              West Virginia Department of Environmental Protection.




                                                    17
Survey of Environmental Compliance and Sustainability                        HR-MA-13-001




                          Appendix D: Field Environmental Survey


 Area:                                                  Fiscal Year:

 District:                                              Date:


 Name of the person completing this survey:

 Title:

 Contact Phone:

 Facility Name:

 Date Occupied                                          Finance No.

 Facility Manager's Name:                               Facility Type (Plant, VMF, NDC,
                                                        PO, Station, Branch,)
 Address:                                                 Do you have an UST or AST
 ___________________________________                                (circle one)


General Questions

    1. How long have you been in your current position?

    2. Who do you contact for environmental related issues or concerns?

Environmental Compliance - Tracking of Notices of Violation

    3. Are you aware of any Notices of Violation (NOV), notice to correct or any form of
       citation or observations that your facility has received as a result of
       noncompliance with an environmental regulation?

    4. If yes, please explain:

    5. Have you had any repeat violations?

    6. What is your process for reporting environmental NOVs?

    7. Are you aware of the requirement to report all NOVs to the Manager, Regional
       Environmental Compliance and Sustainability?


                                                  18
Survey of Environmental Compliance and Sustainability                           HR-MA-13-001




   8. Do you maintain records related to Environmental NOV’s?

   9. Do you have any suggestions for improving the NOV process?

   10. Have you received any other inspections or visits by an environmental regulatory
       agency in the last year?

   11. Name of the agency.

   12. Date of inspection.

   13. Outcome of inspection

Environmental Compliance – Funding and Management

   14. How do you fund environmental compliance projects and issues at your facility?
       (examples: storage tank permits and registrations, air permits, waste generator
       permits, hazardous waste removal, fixing storage tanks, storm water outfall
       sampling, sampling of drums and waste, waste sludge removal, etc.)

   15. What was your total compliance cost by category for FY 2011?

   16. Who authorizes payment for the above types of environmental costs?

   17. In your opinion what is the best way to isolate and track the costs related to
       environmental compliance at a local and National level?

   18. Do you call in environmental projects to the Facilities Department’s FSSP
       Response Line?

   19. If yes, how many environmental compliance projects have you called into FSSP
       since October 2011? Provide a listing:

   20. Do you know who needs to get environmental compliance training at your
       facility?

   21. If yes, who needs to get environmental training?

   22. Do you know where to get environmental compliance training?

   23. Could you provide the annual cost of training related to environmental
       compliance?

   24. Do you have any suggestion to improve the Postal Service environment
       compliance program?


                                                  19
Survey of Environmental Compliance and Sustainability                          HR-MA-13-001




Environmental Compliance - De-activation Readiness

   25. Is this facility targeted for de-activation? Yes/No
           (Stop if answer is No)

   26. Have you identified and inventoried environmental equipment such as any
       storage tanks, old water fountains, refrigerators, window a/c that will need to be
       closed or de-activated properly?

   27. If yes, have you identified and inventoried environmental equipment to be closed
      or deactivated, please list.

   28. Have you identified all your hazardous or regulated waste, unused chemicals,
       paints, and other potentially hazardous materials that will need to be properly
       disposed?

   29. If yes, you have identified all potentially hazardous materials to be properly
      disposed, please list below.

   30. Have you identified environmental records that will need to be properly managed,
       transferred, or archived?

   31. If yes, you have identified environmental records etc., can you provide locations
       of where they are?

   32. Do you have any other special environmental issues that need to be properly
       evaluated prior to de-activation (wetland, retention pond, mural, historic property,
       etc.)

   33. If yes, you have other special environmental issues that need to be properly
       evaluated prior to de-activation, please list below.

   34. What do you believe the Office of Inspector General should review concerning
       the areas of energy, environment compliance, and/or sustainability?




                                                  20
